Attorneys for Petitioner
Lawrence J. Joseph
Counsel of Record

Law Office of Lawrence J. Joseph
1250 Connecticut Avenue, NW
Suite 700-1A
Washington, DC 20036

202-355-9452

ljoseph@larryjoseph.com
Party name: Stephen Stockman
Attorneys for Respondent
Jeffrey B. Wall
Counsel of Record

Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

Party name: United States

202-514-2217

